                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                       Summary of
  A Review of the Use of Alternative Screening Procedures at an Unnamed Airport

                                                                                                (OIG-04-28)

We undertook this review at the request of a Senator who referred to us a report by a Transportation
Security Administration (TSA) screener that an airport may have been using an unauthorized
procedure to screen checked baggage. Our review assessed whether the airport screened checked
baggage according to applicable laws and TSA standards, and whether any alternative procedures
used maintain security effectiveness and efficiency.

The reviewed airport used a TSA-approved alternative screening procedure, a variation of explosive
trace detection. TSA does not always screen checked baggage according to its standard operating
procedures because it has insufficient equipment and human resources to adjust to high passenger
volume, equipment unavailability, or other issues. For these situations, TSA approved several
alternative screening procedures, which the Aviation and Transportation Security Act authorizes.
The reviewed airport used an alternative procedure primarily because it did not have sufficient space
and equipment to adapt to passenger volume at peak times. Airport layout improvements and the
installation of additional equipment in 2003 decreased the airport’s use of the procedure.

Although the alternative procedure is authorized, we have concerns about its use. Given the
sensitivity of the equipment, it is likely that the procedure would identify explosive traces. However,
TSA provided inadequate guidance to standardize screeners’ use of the procedure, and we
encountered variations in use that could diminish its effectiveness. We recommended that TSA
conduct a technical study to determine how effective the procedure is and to test procedures to
control the quality of screening in this manner. If the alternative procedure is effective, TSA should
develop and disseminate clearer and more specific procedures.

Second, TSA headquarters did a poor job of specifying how the alternative procedures are to be used
and monitoring their use. TSA headquarters had no accurate records of the reviewed airport’s use of
alternative screening procedures throughout 2003. Use of the alternative screening procedures is one
indicator for TSA’s resource shortfalls. If TSA monitors the procedures’ use, TSA builds a
knowledge base for careful deployment of the resources it does have and builds a case for more
resources if needed. Therefore, we recommended that TSA revise the policy and program for
alternative screening procedures, including improved reporting requirements.

Our full report is restricted “Sensitive Security Information” and is not publicly available. TSA
responded to the report and agreed to implement our recommended corrective actions.
